  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


               Management Letter 

              for the FY 2006 DHS 

            Financial Statement Audit 





OIG-07-74                   September 2007
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                      September 6, 2007


                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our oversight responsibility to promote economy, efficiency and effectiveness within the
department.

This report represents the management letter for DHS’ FY 2006 financial statement audit. It
contains observations and recommendations related to internal control that were not required to be
reported in the financial statement audit report. The independent public accounting firm KPMG
LLP (KPMG) performed the audit of DHS’ FY 2006 financial statements and prepared this
management letter. Material weaknesses and other reportable conditions were reported, as required,
in KPMG’s Independent Auditor’s Report, dated November 15, 2006, that was included in the
FY 2006 DHS Performance and Accountability Report. KPMG is responsible for the attached
management letter dated December 15, 2006, and the conclusions expressed in it. We do not
express opinions on DHS’ financial statements or internal control or conclusion on compliance with
laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                      Richard L. Skinner 

                                      Inspector General 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
